HHS/OIG-Audit--"Medicare Part B - Reimbursement to Providers for Drugs Used in Conjunction with Durable Medical Equipment, (A-06-92-00079)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Medicare Part B - Reimbursement to Providers for Drugs Used in Conjunction
with Durable Medical Equipment," (A-06-92-00079)
August 14, 1995
Complete
Text of Report is available in PDF format (1.7 MB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report presents the results of our review of the Health Care Financing
Administration's (HCFA) policies regarding reimbursement for drugs used with durable
medical equipment (DME). We believe that HCFA's policy for paying for self-administered
outpatient prescription drugs used in conjunction with DME lacks clear legislative
authority. Also, HCFA does not have specific pricing policies for the payment of
drugs used with DME. Consequently, there was no assurance that in calendar year
1992 about $43.9 million of the total payments of $57.4 million for self-administered
outpatient drugs used with DME were properly priced and paid. We recommended that
HCFA: (1) seek legislation to expressly authorize the coverage of drugs used with
DME, and (2) fully implement policies and procedures at the carriers to ensure
that such drugs are properly priced and paid.